September 28, 2009

MICHAEL S. FUREY
MANAGER, NORTHERN VIRGINIA DISTRICT

SUBJECT: Audit Report – Effects of the Flats Sequencing System on
         Delivery Operations – Northern Virginia District
         (Report Number DR-AR-09-011)

This report presents the results of our audit of the Effects of the Flats Sequencing
System (FSS) on selected delivery operations (Project Number 09XG004DR000). Our
objective was to evaluate the effects of FSS on delivery operations and operating costs
at selected Northern Virginia District delivery units. This audit addressed operational
risk. See Appendix A for additional information about this audit.

Conclusion

Results in the Northern Virginia District

The five Northern Virginia District delivery units had all improved1 in delivery operations
during the initial 6 months of FSS testing.2 However, flat volumes decreased by more
than 50 percent during this testing period, so we could not determine how much of
these operational gains were due to the implementation of FSS.

Specifically, we found reductions in:

        City carrier workhours
        City carrier overtime hours
        City carrier routes
        Manual distribution clerk workhours and positions

These improvements contributed to an overall 6 month cost reduction of approximately
$1.3 million (see Appendix C for calculations). In addition to cost reductions, customer
service also improved in the selected Northern Virginia District delivery units. Since we
1
  Other factors such as declining mail volume could have also contributed to delivery improvements.
2
  The initial 6 months of FSS testing dates vary due to different start dates for each delivery unit during fiscal year
(FY) 2008. The Postal Service did not have an estimated cost reduction goal over their FSS test period. Per the FSS
Decision Analysis Report (DAR) cost savings will not be realized for city delivery, mail processing and support
operations until fiscal year 2012, which is the first full year of savings. OIG cost reduction calculations were based on
comparative analysis of mail volume and number of workhours before and after the testing period.
Effects of the Flats Sequencing System on                             DR-AR-09-011
 Delivery Operations – Northern Virginia District


did not find any adverse effects on delivery operations, we are not making any
recommendations in this report. See Appendix B for our detailed analysis of this topic.
The U.S. Postal Service agreed with the findings, but chose not to comment because
there were no recommendations.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    Steven J. Forte
    Linda J. Welch
    James W. Kiser
    Jerry D. Lane
    Joseph A. Martin
    Bill Harris




                                                    2
Effects of the Flats Sequencing System on                                                      DR-AR-09-011
 Delivery Operations – Northern Virginia District


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service currently processes about 53 billion flat mailpieces annually.
Mailers presort approximately 57 percent of this mail to individual carrier routes. In
October 2006, the Postal Service recommended an investment of $1.49 billion in the
Phase I Decision Analysis Report (DAR) to develop, purchase, and deploy 100 flats
sequence sorting machines at 33 sites. The FSS is designed to perform automatic
sequencing function for flat sized mail, which includes large envelopes, newspapers,
catalogs, circulars, and magazines.

The FSS processes flat mailpieces from mail streams produced by the Automated Flat
Sorting Machine 100 and the Upgraded Flat Sorting Machine 1000. In addition, the
FSS processes a significant portion of the flat mailpieces that otherwise would have
arrived at delivery units in mailer-prepared bundles and sacks. The flat mailpieces
processed on the FSS arrive at a delivery unit in walk sequence order, ready for
delivery by the carrier without additional mail movement or manual sorting. The Postal
Service is expected to achieve delivery unit savings by:

      Eliminating manual city carrier casing.
      Reducing the number of carrier routes.
      Reducing manual distribution clerk workhours.

Declining mail volume is a symptom of the ailing economy. During FY 2008, mail
volume declined by approximately 9.5 billion pieces. Per our analysis, flat volume3 in
the selected Northern Virginia District delivery units decreased by approximately 14.14
million pieces from 27.1 million to 13.0 million pieces. See Chart 1.




3
  Delivered flats are total number of flat mailpieces delivered to delivery units, in walk sequence and requiring manual
sorting.
4
  These numbers are rounded.




                                                           3
Effects of the Flats Sequencing System on                                                       DR-AR-09-011
 Delivery Operations – Northern Virginia District

                                               Chart 1. Delivered Flats




                                      Source: Enterprise Data Warehouse (EDW)

The delivery units reviewed also had overall reductions in cased flats5 of approximately
11.0 million going from approximately 19.3 million to 8.3 million flat pieces.6 See
Chart 2.
                                                 Chart 2. Cased Flats




                                                      Source: EDW


OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine the effects of FSS on delivery operations and delivery
operating costs at selected Northern Virginia District delivery units. Due to staggered
FSS testing start dates, the selected delivery units reviewed were integrated into the
process during different months during FY 2008. Our audit scope covered June 2007 to

5
    Cased flats are mailpieces that require the carrier to manually sort in walk sequence.
6
    This flat piece count compares the 6 months before the FSS implementation to the initial 6 months of testing.




                                                            4
Effects of the Flats Sequencing System on                                                      DR-AR-09-011
 Delivery Operations – Northern Virginia District


January 2009, a 6-month period before FSS testing and the first 6 months during FSS
testing7 for each delivery unit reviewed. See Table 1.

                                          Table 1. FSS Testing Periods
                                       6 Months Before         Testing Start                      First 6 Months of
       FSS Site                          FSS Testing              Month                              FSS Testing
xxxxxxxxxxxxxxxxxxxxxx
                                June 2007 – November 2007            December 2007         December 2007 – May 2008
xxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxx
                                July 2007 – December 2007            January 2008          January 2008 – June 2008
xxxxxxxx
xxxxxxxxxxxxxxxxxxxxxx          October 2007 – March 2008            April 2008            April 2008 – September 2008
xxxxxxxxxxxxx                   October 2007 – March 2008            April 2008            April 2008 – September 2008
xxxxxxxxxxxxxxxx                February 2008 – July 2008            August 2008           August 2008 – January 2009
                          Source: Postal Service Northern Virginia District Management


To accomplish our objective, we:

   Judgmentally selected five of the 10 initial8 FSS delivery unit locations in the
    Northern Virginia District.

   Reviewed applicable documentation, policies and procedures such as the FSS DAR,
    dated October 20, 2006, and the approved FSS Work Methods memorandum of
    understanding between the Postal Service and the National Letter Carrier
    Association, dated November 24, 2008.

   Obtained and reviewed data from the EDW and eFlash that included the total
    delivered flat mailpieces, cased flat mail volumes, sequenced flat mail volumes, city
    carrier office and street workhours, and manual distribution clerk workhours.

   Obtained and reviewed performance indicator data such carriers returning after 5
    p.m. and Managed Service Points (MSP) scan percentages for FYs 2008 through
    2009, Quarter 3.

   Conducted visits to the selected delivery unit locations.

   Conducted interviews with Postal Service Headquarters, Capital Metro Area, and
    Northern Virginia District officials.

We conducted this performance audit from October 2008 through September 20099 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
7
  The scope limitations are due to differences in the FSS Pre-Production Testing start dates for each delivery unit.
8
  The 10 initial FSS sites included xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
9
  This project was suspended on January 5, 2009, and reopened March 25, 2009, in order to complete work on
higher priority projects.




                                                           5
Effects of the Flats Sequencing System on                           DR-AR-09-011
 Delivery Operations – Northern Virginia District


evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on September 21, 2009, and
included their comments where appropriate. We relied on data obtained from U.S.
Postal Service database systems. We did not directly audit the systems, but performed
limited data integrity review to support our data reliance.




                                                    6
   Effects of the Flats Sequencing System on                                       DR-AR-09-011
    Delivery Operations – Northern Virginia District


   PRIOR AUDIT COVERAGE

   The OIG has issued 5 reports related to our objective in the last several years.

                                                                Monetary
  Report Title       Report Number         Final Report Date     Impact               Report Results
Flats                CA-AR-09-006             July 1, 2009     $7,733,522   This audit determined that
Sequencing                                                                  management of the FSS
System                                                                      contract process resulted in
Contractual                                                                 increased financial risk to the
Remedies                                                                    Postal Service. Management
                                                                            agreed with findings and
                                                                            recommendations 1 and 2 but
                                                                            only partially agreed with the
                                                                            finding and recommendation 3.
Flats                 DA-AR-09-001         December 23, 2008     None       The audit determined that
Sequencing                                                                  program management was
System:                                                                     attentive to system performance
Program Status                                                              and schedule risks.
                                                                            Management agreed with the
                                                                            finding and recommendation in
                                                                            this report.
Management of         CA-MA-09-002         December 1, 2008      None       The report did not identify any
Contract                                                                    unnecessary or inappropriate
Changes – Flats                                                             increased costs to the Postal
Sequencing                                                                  Service because of changes to
System                                                                      the FSS contracts.
                                                                            Management agreed with the
                                                                            finding and recommendation in
                                                                            this report.
Flats                 DA-AR-08-006            June 4, 2008       None       The audit determined the Postal
Sequencing                                                                  Service needed to focus greater
System:                                                                     attention on workload, the First
Production First                                                            Article Testing schedule, and
Article Testing                                                             critical deliverables.
Readiness and                                                               Management generally agreed
Quality                                                                     with the finding and
                                                                            recommendation in this report.
Flats                 DA-AR-07-003            July 31, 2007      None       The audit determined that Postal
Sequencing                                                                  Service Engineering needed to
System Risk                                                                 focus greater attention on risk
Management                                                                  management standards to
                                                                            ensure the significant risks
                                                                            associated with deployment of
                                                                            the FSS were adequately
                                                                            identified and managed.
                                                                            Management agreed with
                                                                            findings and recommendations 1
                                                                            and 2, but disagreed with
                                                                            findings and recommendations 3
                                                                            and 4 of this report.




                                                        7
Effects of the Flats Sequencing System on                                DR-AR-09-011
 Delivery Operations – Northern Virginia District


                              APPENDIX B: DETAILED ANALYSIS

The Northern Virginia District delivery unit locations reviewed improved their delivery
operations and reduced operating costs during the initial 6 months of FSS testing.
However, flat volumes decreased by more than 50 percent during this testing, so we
could not determine how much of these operational gains were due to the
implementation of FSS.

City Carrier Workhours

City carrier office hours declined at the selected units. In the 6 months prior to the
implementing FSS, city carriers used 66,900 office hours. Office hours during the initial
6 months of FSS testing declined to 48,850. To manage the reduced flat mail volume
and its impact on the morning office time, delivery unit officials adjusted carriers’ work
schedules to later start times. However, OIG analysis of the data showed workhours for
one location, xxxxxxxxxxxxxxxx increased slightly during the initial 6 months of FSS
testing. This was because the unit’s initial testing period included Christmas holiday
workhours. See Chart 3.

                                    Chart 3. City Carrier Office Hours




                                                Source: EDW




                                                     8
Effects of the Flats Sequencing System on                                                   DR-AR-09-011
 Delivery Operations – Northern Virginia District



For the 6-month period prior to implementing FSS, city carriers’ office hours costs were
approximately $2.8 million10 and during the initial 6 months of FSS testing declined to
approximately $2.1 million. This resulted in a cost reduction of approximately $760,000.
See Chart 4.

                                      Chart 4. City Carrier Office Hour Costs




                                                      Source: EDW


City Carrier Overtime

The amount of overtime in the selected units was also reduced during the testing
period. Specifically, since FSS reduced the number of flats carriers had to sort, carriers
reported to their routes earlier thereby reducing overtime related to carriers returning
after 5:00 p.m. For example, as shown in Chart 5, during the 6 months prior to the FSS
implementation, city letter carriers used 15,944 of overtime hours as compared to the
10,875 of overtime hours used during the initial 6 months of FSS testing. This resulted
in a cost reduction of $320,158. See Chart 5.




10
     We calculated carrier office hour costs calculated using the FY 2008 rate of $42.11.




                                                             9
Effects of the Flats Sequencing System on                                                      DR-AR-09-011
 Delivery Operations – Northern Virginia District



                                       Chart 5. City Carrier Overtime Hours




                                                     Source: EDW


Additionally, we reviewed the city delivery performance indicators pertaining to street
delivery, MSP11 and carriers returning after 5:00 p.m.12 We found MSP percentages
remained unchanged after management adjusted the carrier’s route start times. MSP
scans averaged 95 percent for all five delivery units, which suggest that carriers were
scanning key service points and customers were receiving consistent delivery of their
mail at approximately the same time, each day.

Carriers Returning After 5:00 p.m.

The implementation of the FSS appears to have contributed to a reduction in the
number of carriers returning after 5:00 p.m. Specifically, carriers returning after 5:00
p.m. averaged:

          54 percent in FY 2008 Quarter 1 before FSS environment.
          70 percent in FY 2009 Quarter 1 during FSS testing, which includes the
           Christmas holiday and inclement weather issues.

However, at the end of FSS testing phase and beginning of FSS full-production in FY
2009 Quarter 3, the carriers returning after 5:00 p.m. percent significantly decreased to
an average of 10.5 percent, which suggest carriers were delivering the mail within their
authorized street times. For example, for xxxxxxxxxxxxxxxxxxxxxxxxxxxx,
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, return percentages decreased to 1.3
percent, 4.4 percent, and 4.6 percent, respectively. See Table 2.

11
     The percentage of street performance for scans during street delivery. The goal is 95 percent on time scans.
12
     The percentage of carriers returning to the station from delivering the mail after 5 p.m.




                                                           10
Effects of the Flats Sequencing System on                                                 DR-AR-09-011
 Delivery Operations – Northern Virginia District



                        Table 2. Percentage of Carriers Returning After 5:00 p.m.
                       FY 2008    FY 2008      FY 2008         FY 2008   FY 2009        FY 2009     FY 2009
                         Q1         Q2           Q3              Q4        Q1             Q2          Q3
xxxxxxxxxxxxxx
                        44.40      26.50        48.00           70.60     74.50           19.70          1.30
xxxxxxxxxxxxx
xxxxxxxxxxx             48.30      30.00        46.30           66.70     71.30           27.10          26.70
xxxxxxxxxxxxxx
                        52.80      32.60        44.20           57.80     60.00           21.90          4.40
xxxxxx
xxxxxxxxxxxx            63.50      43.20        59.30           60.50     78.00           23.60          4.60
xxxxxxxxxxxx
                        63.10      56.00        57.30           62.00     66.20           40.90          15.70
xxxx
   Averages             54.42      37.66        51.02           63.52     70.00           26.64          10.54 
                 Source: OIG City Delivery Performance Analysis Risk Indicator Scans Model

City Carrier Routes

The FSS also impacted the number of routes in the selected units. The justification for
FSS required route adjustments, which included combining or eliminating routes to
capture workhour reductions. District management conducted route adjustments after
implementation of the FSS reducing routes from 154 routes to 134. These adjustments
removed 195 base hours from routes in the selected units. See Table 3.

                                    Table 3. Cost of Base Route Hours
                                      Total Daily Route      Total Daily Route
                                     Base Hours Before       Base Hours After                  Base Hours
        Delivery Unit                Route Adjustments      Route Adjustments                  Reduction
xxxxxxxxxxxxxxxxxxxxxxxxxxxx                          306                    259                                47
xxxxxxxxxxxx                                             263                       204                          59
xxxxxxxxxxxxxxxxxxxxx                                    152                       134                          18
xxxxxxxxxxxxxx                                           185                       165                          20
xxxxxxxxxxxxxxxx                                         331                       280                          51
              Totals                                  1,237                       1,042                      195
                         Source: Postal Service Northern Virginia District Management




                                                     11
Effects of the Flats Sequencing System on                                  DR-AR-09-011
 Delivery Operations – Northern Virginia District



Manual Distribution Clerk Workhours and Positions

Finally, clerk workhours were also reduced at the selected units. Specifically, the 6
months prior to the FSS implementation, clerks used 26,989 workhours compared to the
23,155 workhours used during the initial 6 months of FSS testing. There was an
increase in the workhours at the xxxxxxxxxxxxxxxx unit during the initial 6 months of
FSS testing because the unit’s testing included Christmas holiday workhours. See
Chart 6.
                                Chart 6. Manual Distribution Clerk Hours




                                                Source: EDW




                                                    12
Effects of the Flats Sequencing System on                                                 DR-AR-09-011
 Delivery Operations – Northern Virginia District


The FSS environment caused a significant change in the clerk’s workload. For
instance, the clerk’s responsibility for the breakdown and distribution of carrier routed
mail was almost totally eliminated. However, clerks will continue to sort and distribute
some mail due to mail arrival13 and learning curves associated with revised schemes.
Additionally, according to the National Labor Agreement, management must schedule a
full-time clerk for 40 hours of work regardless of the workload.14 The change in
workload during FSS testing resulted in eliminating four positions at the selected units
saving about $181,000. See Table 4.

                              Table 4. Manual Distribution Clerk Positions
                                                           6 Month
                                                          Costs of      6 Month Costs
                        Total Manual    Total Manual       Manual          of Manual
                        Distribution    Distribution     Distribution    Distribution
                            Clerk           Clerk           Clerk            Clerk
                          Positions       Positions       Positions        Positions                6 Month
                         Before FSS      During FSS      Before FSS       During FSS                  Cost
   Delivery Unit           Testing         Testing         Testing          Testing                Reductions
 xxxxxxxxxxxxxx
                               8                  7                $361,920           $316,680          $45,240
 xxxxxxxxxxxxx
 xxxxxxxxxxxx                  8                  7                 361,920             316,680          45,240
 xxxxxxxxxxxxxx
                               6                  5                 271,440             226,200          45,240
 xxxxxx
 xxxxxxxxxxxx                 3                  3                  135,720            135,720               0
 xxxxxxxxxxxxxxxx              7                  6                 316,680            271,440          45,240
       Total                  32                 28              $1,447,680         $1,266,720        $180,960
                        Source: Postal Service Northern Virginia District Management

As a result of the initial 6 months of FSS testing in selected Northern Virginia District
delivery units, mail service improved to the customer as many carriers were returning
before 5:00 p.m. to their units. We did not find any adverse effects on delivery
operations. To address the declining mail volume and changes in workload due to FSS,
district officials indicated they established schedule adjustments, used part time flexible
employees, and assigned clerks to other delivery units. They also moved clerks from
the delivery area to the retail sales window and eliminated clerk positions when
possible. District officials indicated they are monitoring the new FSS environment and
making adjustments, where needed to assist with managing the daily workload.




13
  Mail arriving late to the processing plant may not be processed on the FSS.
14
  We plan to review additional sites where the FSS has been implemented in the full production mode in FY 2010,
and will further evaluate the effects of FSS on delivery operations.




                                                       13
Effects of the Flats Sequencing System on                                             DR-AR-09-011
 Delivery Operations – Northern Virginia District


       APPENDIX C: TOTAL ESTIMATED COST REDUCTIONS CALCULATION

                                            Cost for                  Cost for           6 Months
                                        6 Months Before           6 Months During          Cost
              Workhours                   FSS Testing               FSS Testing         Reductions
     Office Hours                              $2,817,154                $2,057,072         $760,082
     Overtime Hours                                  1,007,023              686,865          320,158
     Clerk Positions                                 1,447,680            1,266,720          180,960
            Net Reductions                          $5,271,857           $4,010,657       $1,261,200
                                                    Source: OIG




                                                        14
